No.

20-5916

3ftt tljc Supreme Court of tfjc ©nttefc States!
Veronica Delph,
Petitioner,

Siiit

v.-

(UAMS) University of Arkansas for
Medical Sciences, Melvin Kirkwood
Assistant Manager for UAMS,
Respondent.

FILED
AUG 1 0 2020
ml5rsk

On Petitionerfor Writ of Certiorari

From the United States District Court Eastern District of Arkansas Western
Division Appeal to the United States Court ofAppeals for the Eighth Circuit

PETITION FOR WRIT OF CERTIORARI

Veronica Delph
Petitioner,
Pro se of Record
2902 Bermuda Lane
Little Rock, Arkansas 72206
(501) 291-7584
:?

Jj

,»•

t

AUG 1 7 2023

1

QUESTION PRESENTED
Does a court of appeals deny a party due process
Under the 14th Amendment when it decides the case on
A basis never litigated or passed on as a matter of fact
Or law in the trial court and raised for the first time on
Appeal.

11

PARTIES TO THE PROCEEDINGS
The parties are:
Veronica Delph file a complaint under Title VII of the Civil Rights Act of 1964
and American With Disabilities of the Civil Rights Act of 1964( as amended)
American With Disabilities Title VII of the Civil Rights Act of 1990(as amended)
and Retaliation and Veronica Delph is the Petitioner,
(UAMS) University of Arkansas for Medical Sciences,
Melvin Kirkwood assistant manager for UAMS, Respondents.

Ill

TABLE OF CONTENTS
QUESTION PRESENTED

l

PARTIES TO THE PROCEEDINGS

n

TABLE OF AUTHORITIES

IV

OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED................

1

STATEMENT

2

Factual Background.....

3

Procedural Background

3

REASONS FOR GRANTING THE WRIT

4

CONCLUSION

5

APPENDIX
Appendix A

Order Denying Petition for Certiorari
in the United States District Court Eastern
of Arkansas Western Division

Appendix B

Opinion in the United States Court of Appeals
For the Eight Circuit

IV

TABLE OF AUTHORITIES
CASES
Singleton v. Wulff, 428 U.S. 106,120 (1976)......

4

Turner v. City ofMemphis, 369 U.S. 350 (1962)

4

Hormel v. Helvering313 U.S. 552, 557, (1941)...

4

Dandridge v. Williams, 397 U.S. 471,475 (1970)

4

U.S. v. Lovasco, 431 U.S. &83, 788 n. 7 (1977)...

4

CONSTITUTION
U.S Const, amend. 1st

2

U.S. Const, amend. 14, Sec. 1

1

STATUTES
28 U.S.C. § 125

1

OTHER AUTHORITIES
Federal Rule 60 Rules of Civil Procedur

4

Title VII of the Civil Rights Act of 1964 (as amended) and American With
Disabilities of Title VII of the Civil Rights Act of 1990 (as amended). ..1,2

1
Veronica Deiph respectfully petitions for a writ of certiorari to
review the judgment of the United States District Court Eastern District of
Arkansas Western Division and of the United State Court of Appeals for the Eighth
Circuit in this case.
OPINIONS BELOW
The United States District Court Eastern District of Arkansas Western
Division-Little Rock opinion is unreported. Petition Complaint Appendix) The
United States District Court Eastern District of Arkansas Western Division denied
Plaintiff Complaint.
JURISDICTION
The judgment of the United States District Court Eastern District of
Arkansas Western Division and the judgment of the United States Court of
Appeals for the Eighth Circuit denied Petitioner Complaint pursuant to 28 U.S.C.
§1257 United States District Court Eastern District of Arkansas Western Division
decision, the Court’s Jurisdiction is being invoked under 28 U.S.C § 1257 also
28 U.S.C § 1254(1).
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
U.S. Constitution, amend. 14, Sec. 1, provides in relevant part:
.....No State shall.. ..deprive any person of life, liberty, or property, without due
process of law;......
Complaint under Title VII of The Civil Rights act of 1964( as amend) and
American With Disabilities of Title VII of the Civil Rights Act of 1990(as
amended) This a civil rights action was brought under pursuant to title VII of the
Civil Rights Act of 1964 for employment discrimination, arbitrary denials of due
process claim of First Amendment retaliation and denial of equal protection under
the Fourteenth Amendment to the federal Constitution.

2

The district Court enter an Order granting Veronica Delph cs motion to
proceed in forma paupers, No. 1, is granted.
Veronica Delph in her claim of a constitutional violation and in her complaint state
enough facts to state a claim for relief. That article establishes the principle of
equality before the law and prohibits all forms of arbitrary discrimination in law or
by any authority and racial discrimination, sex discrimination, retaliation, disability
discrimination, claims under the Arkansas Civil Rights Act, intimidation,
harassment, intentional infliction of emotional distress, and retaliation, Arbitrary
discrimination prohibits discrimination based on any the following:
Person’s medicinal condition or mental or physical disability; or personal
characteristics, such as a person’s physical appearance or because she is a black
female. The Assistance Manager, Melvin Kirkwood set in motion to cause
Veronica Delph to become more sicker and Melvin Kirkwood intentional cause
intentional infliction of emotional distress upon Veronica Delph.
Veronica Delph was exercising her rights under the First Amendment when she
call 9-1-1 because she became sick on the job and the Police came on the scene
and the employee of UAMS take action against her for exercising her rights for
call 9-1-land employee disciplinaiy was file against her and this is one of the
retaliation claim for relief that Veronica Delph is seeking. Once a person become
sick they automatically become under the American disability act.
The Americans with Disabilities Act (ADA) provides broad nondiscrimination
protection for individuals with disabilities in employment, public services, public
accommodations and services, in 1990 and amended in 2008 and part of the civil
rights and elimination of discrimination against individuals with disabilities. It has
been the subject of numerous lower court decisions and the Supreme Court has
decided 20 ADA cases, most recently in 2006 United States v. Georgia.
The district court erred in dismissing the complaint and the amended complaint in
this action. Pursuant to Federal Rule 60 Rules of Civil Procedure relief from
judgment or Order that during the pendency of an appeal, such mistakes may be so

3

corrected before the appeal is docketed in the appellate court, and thereafter while
the appeal is pending may be so corrected with leave of the appellate court.
STATEMENT
Factual Backgroung
Veronica Delph a black female filed a complaint charge of discrimination,
Veronica Delph is a person with a disabilities and claim under the American With
Disabilities Act and filed two charge with EEOC.
The charge # 493-2017-01107 on May 18, 2017 Veronica Delph filed her charge in
to EEOC on May 10,2017 Veronica Delph was hires August, 2015 and worked
most recently as a cashier Veronica Delph filed a prior EEOC charge. Veronica
Delph was discharged on or August 15,2017.1 was told I was discharged due to
attendance policy violation. Shortly after Veronica Delph filed the complaint to
EEOC she was terminated from her job.

Procedural Backgroung
A. UAMS is the Hospital treated sick people and also treatment for
the mental, disabilities, incapacities people and that receive benefit program money
and pursuant to Title VII of the Civil Rights Act of 1964 prohibits discrimination
bases on Race, Color or National Origin in programs or Activities which receive
Federal Financial Assistance. The American With Disabilities Act the (ADA)
prohibits discrimination in compensation against persons with disabilities. While
an employer may make compensation differences based on job differences or
job performance, the employer may not base pay differences on the physical or
mental condition of the worker.
B. Supervisor, Melvin Kirkwood set in motion the hostile work
environment, harassment by other employee that set in motion that led to this
action.

4

C. Tracy Brown she aide and abide Supervisor, Melvin Kirkwood
by illegal terminate Veronica Delph for her job for the UAMS and in the Arkansas
work Force.
D. Diana Johnson she aide and abide Assistance Manager, Melvin
Kirkwood by making a difference between the employees.
E. Yolunda Cain she was carrying out Melvin Kirkwood regime
against Veronica Delph.
Pursuant to Rule 60 Rules of Civil Procedure the order in the U.S.
district court was set aside and should be readdress.

Pursuant to Rules of the Supreme Court of the United States Rule 14
A petition for a writ of certiorari shall contain, in the order indicated:
The question presented for review, expressed concisely in relation to the
circumstances of the case, without unnecessary detail. The questions should be
short and should not be argumentative or repetitive.

REASONS FOR GRANTING THE WRIT
This case presents an issue which goes to the essence of the appellate
process and the fairness and constitutional legitimacy of the judicial process. Are
appellate court bound by due process in deciding cases the same as other courts?
The general rule is “that a federal appellate court does not consider an issue
not passed upon below.” Singleton v. Wulff, 428 U.S. 106,120 (1976). This rule,
like every other rule, has exceptions, e.g., where the proper resolution is beyond
any doubt or “ injustice might otherwise result. “Id., citing Turner v. City of
Memphis, 369 U.S. 350 (1962); and Hormelv. Helvering, 312 U.S. 552, 557,
(1941). Compare Dandridge v. Williams, 397 U.S. 471,475 (1970) (issues fully
briefed considered); U.S. v. Lovasco, 431 U.S. 783, 788 n. 7 (1977).

5
Or right for the wrong reason and for refusing to do any act on the ground
that it would be inconsistent with such law. Veronica Delph who is denied or
cannot enforce in the district court of such right under any law providing for the
equal civil rights of a citizens of the United States.
CONCLUSION
For the foregoing reasons, the petition for a writ of certiorari should be. granted.
Respectfully Submitted,
VERONICA DELPH
2902 Bermuda Lane
Little Rock, Arkansas 72206
Phone No. (501)291-7584

The Defendants University of Arkansas for
Medical Sciences, Melvin Kirkwood
The Defendant’s Attorney
THE BOARD OF TRUSTEES OF
THE UNIVERSITY OF ARKANSAS
On behalf of ALL DEFENDANTS
ATTORNEY, SHERRI L. ROBINSON, #97194
Associate General Counsel
Univ. of Arkansas for Medical Sciences
4301 West Markham, Slot 860
Little Rock, Arkansas 72205

